Before the Committee on Appropriations
Subcommittee on Transportation, Housing and
Urban Development, and Related Agencies
United States House of Representatives

For Release on Delivery
Expected at               Top Management
                          Challenges Facing the
10:00 a.m. EDT
Tuesday
March 10, 2009
CC-2009-045
                          Department of
                          Transportation


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Olver, Ranking Member Latham, and Members of the Subcommittee:

We appreciate the opportunity to testify today on the top management challenges
facing the Department of Transportation (DOT). As you know, we report annually on
these challenges as required by Congress and the Office of Management and Budget
(OMB). Our latest report in November 2008 1 addressed both short- and long-term
actions that we identified and that DOT should take to maximize investments in
transportation and ensure transportation safety.

The U.S. transportation system is vital to the Nation’s economy and the quality of life
for all Americans. Each year, DOT spends about $70 billion on a wide range of
efforts to enhance mobility and safety. The American Recovery and Reinvestment
Act 2 infuses an unprecedented additional $48 billion for Department programs,
presenting new challenges throughout the Government and particularly for DOT.

While such a rapid infusion of new funds is needed to create or preserve jobs and
improve the U.S. transportation system, it will at the same time create significant
oversight issues for DOT and all of the Operating Administrations receiving stimulus
funds. These include the Federal Highway Administration (FHWA), the Federal
Railroad Administration (FRA), the Federal Transit Administration (FTA), and the
Federal Aviation Administration (FAA). It is therefore critical that DOT reassess its
business practices and investment management portfolios to address and mitigate the
inherent risks associated with the substantial increase in grants and procurement
actions that will result from the stimulus program.

DOT has proactively responded to the stimulus program, particularly by creating the
Department Transportation Investment Generating Economic Recovery (TIGER)
team to coordinate DOT-wide efforts. This past year, DOT also made progress on a
number of important fronts. These include commissioning several new runways to
improve capacity within the National Airspace System; committing to data-driven,
risk-based oversight of bridge safety; and receiving a “clean” opinion on DOT’s
financial statements. However, more remains to be done in the areas of maintaining
the safety of the traveling public, relieving congestion, and establishing long-term
financing mechanisms for aviation and surface transportation programs.

Strong leadership will be a prerequisite for meeting the numerous issues facing the
Department, and Secretary LaHood has expressed his commitment to ensure that
stimulus funds are effectively used and protected from fraud, waste, and abuse. Our
office stands ready to do its part to further ensure accountability, efficiency, and
transparency over DOT’s portion of the massive economic recovery program.


1
    OIG Report Number PT-2009-005, “DOT’s FY 2009 Top Management Challenges,” November 17, 2008.
    OIG reports and testimonies are available on our website: www.oig.dot.gov.
2
    Pub. L. No. 111-5 (2009).


                                                                                              1
While responding to the economic stimulus is critical, we cannot overlook the fact
that transportation safety is DOT’s primary mission. My comments today will
summarize the Department’s top management challenges along three cross-cutting
areas: (1) ensuring accountability, effectiveness, and efficiency in Federal funding for
transportation projects; (2) improving oversight of aviation and surface safety; and
(3) ensuring the solvency of transportation trust funds, thereby improving mobility
and reducing congestion. I will also address DOT’s actions to date in addressing
some of these challenges and conclude with what remains to be done.

ENSURING ACCOUNTABILITY, EFFECTIVENESS, AND
EFFICIENCY IN FEDERAL FUNDING FOR
TRANSPORTATION PROJECTS
The Department is taking steps to promote accountability and transparency in
transportation funding associated with the recovery program. In addition to the
creation of a DOT-wide TIGER team to coordinate the Department’s role and ensure
accountability, Operating Administration officials told us they are (1) modifying
financial management systems to track recovery funding and report on results,
including the number of jobs created; (2) working with potential grantees so they can
quickly submit proposals that will meet Federal requirements; (3) considering the
redeployment of current agency employees or the use of “retired annuitants” to meet
the increased workload; and (4) conducting outreach to grantees on procurement and
other issues through the use of frequently-asked-questions on recovery internet sites
and a planned “help desk” e-mail site.

We have been working with DOT officials to support their efforts and have assembled
a cross-cutting team of auditors, analysts, investigators, and attorneys to review each
Operating Administration’s management of recovery program funds. Specifically, we
are examining potential risks related to program structure, Operating Administrations’
oversight process and staffing, state and local grantees’ management and technical
capabilities, cost and schedule estimates, contract management and oversight, and
fraud deterrence efforts. We began our work in January and plan to issue the first in a
series of reports by the end of this month. Based on our initial assessment and our
past and ongoing work, we see four immediate, broad areas of potential vulnerability
that DOT will need to address to ensure accountability, effectiveness, and efficiency
of Federal funds.

  Building an effective acquisition workforce to achieve the goals of the economic
   recovery program;
  Establishing effective contracting mechanisms and financial practices to make
   sound decisions under tight timeframes and avoid wasteful spending;




                                                                                      2
  Proactively reforming mechanisms to combat fraud, waste, and abuse in an
   environment of significantly increased funding to state and local levels; and
   Developing comprehensive oversight of highway and transit investments.
Acquisition Workforce
DOT must ensure that it has sufficient personnel with relevant expertise to meet the
increased workload and accelerated timeframes associated with overseeing stimulus
spending. A sufficiently trained acquisition workforce is key to holding grantees
accountable for contract actions and realistic cost and schedule estimates and ensuring
that state or local recipients can effectively manage their projects and the risks
associated with the recovery program.

Our work has shown that DOT faces substantial challenges in developing and
maintaining a competent acquisition workforce to support its mission. In September
2007, the Department completed a strategic workforce plan, as required by OMB.
However, the plan only addressed part of DOT’s acquisition workforce—contract
officers and contract specialists. Although the strategic plan included a skills
assessment of these positions and a general discussion on retention and hiring
strategies, it did not include essential workforce statistics such as retirement and
attrition information, accession planning, or long- and short-term needs.

Additionally, DOT continues to face challenges in developing a comprehensive
strategic plan for its acquisition workforce, other than for contracting positions. DOT
officials told us they are having difficulty determining the total number of other key
acquisition workforce positions, such as contracting officer technical representatives
and program managers. This is because DOT lacks key information on these
positions, including workforce size, knowledge and skills requirements, and attrition
and retirement rates. Without these critical data, DOT is unable to identify
employment trends and assess the current condition of the workforce to determine the
ideal composition, skill mix, and talent for its future.

Last month, DOT officials compiled a succession plan for the acquisition workforce.
The plan includes a competency assessment for the entire acquisition workforce, some
retirement information, hiring plans, and training strategies for contracting positions.
The Operating Administrations are now designing strategies to address those
weaknesses identified in the competency assessment.

Contracting Mechanisms and Financial Practices
To manage its portion of the economic recovery program, DOT and its grantees will
need to ensure that effective contracting and financial practices are in place to make
sound decisions under the tight timeframes and quick roll-out of the program.
Actions needed include: (1) specifying contract requirements early, maximizing
competition, and using appropriate contract types; (2) preventing unallowable costs,


                                                                                      3
improper payments, and excessive overhead charges during contract execution; and
(3) using financial management systems to track recovery spending and publicly
report on results.

The magnitude and timing of the economic recovery program could exacerbate
contract award problems we have previously identified, such as use of inappropriate
contract types, inadequate competition, and failure to ensure contract prices are fair
and reasonable. For example, audits of DOT and state contracts used to respond to
the Hurricane Katrina emergency found instances in which DOT money was spent
inefficiently because grantees used riskier contracting methods in spending Federal
funds, such as sole-sourced and lump-sum contracts, resulting in significantly higher
costs. In one instance, a state Department of Transportation awarded two sole-
sourced contracts without assurance of fair and reasonable prices. This resulted in the
state paying about $1.7 million more than necessary for bridge repairs.

DOT must also have financial practices in place to ensure that $27.5 billion in
stimulus funding for FHWA is used effectively and in compliance with program
requirements. Our work on FHWA’s oversight of funding for structurally deficient
bridges has highlighted this issue. For example, we reported that FHWA is unable to
determine how much funding that was provided to states is actually spent on
structurally deficient bridges. This is because its financial management system does
not differentiate between spending on structurally deficient bridges and other bridge-
related expenditures. It is imperative that FHWA better measure how states are
spending Federal bridge funds so it can assess the impact of these dollars on bridge
conditions and help Congress consider what changes, if any, it wants to make to the
Highway Bridge Program.

Combating Fraud, Waste, and Abuse
DOT will need to tailor its counter-fraud efforts to adapt to the increase in capital
funding associated with the recovery program and the expected surge in construction
activity throughout the country. To do so, DOT must strengthen outreach efforts to
ensure that grantees and their contractors understand how to recognize, prevent, and
report potential fraud to the appropriate authorities (a list of common fraud schemes
seen by our office is included at exhibit A).

Last year, we reported that DOT needed to develop and maintain a robust ethics
program to promote integrity across the myriad of transportation programs. To its
credit, in June 2008, the Department instituted an enhanced annual ethics training
program for all DOT acquisition and grants management personnel. This year
presents a two-fold ethics challenge for DOT and the Operating Administrations.
First, they must follow through to fully implement this important annual training
requirement. Second, they will need to increase outreach efforts to ensure that
recipients of Federal funds, both grantees and their contractors, have meaningful
ethics programs and sound internal controls to prevent and detect fraud.

                                                                                     4
DOT will also need to take timely actions to suspend and debar individuals or firms
who have defrauded the Department. Federal regulations prohibit firms and
individuals without satisfactory records of integrity and business ethics from receiving
Federal contracts or assistance agreements.

DOT revised its policy in June 2005, in part, to improve timely decision making on
suspension and debarment actions. However, our ongoing audit work shows that the
Department needs to improve the policy—and its implementation—as Operating
Administrations still do not consistently take suspension and debarment actions in a
timely manner.

Last month, the Government Accountability Office testified that they confirmed
allegations that businesses and individuals suspended or debarred for egregious
offenses were continuing to receive Federal contracts. Our work did not find any
DOT contracts or assistance agreements awarded to suspended or debarred firms or
individuals. However, the suspension and debarment program’s policy and
implementation deficiencies leave DOT and other Government agencies vulnerable to
doing business with fraudulent or unethical firms or individuals. The program also
does not ensure such parties will be excluded from gaining future contracts and
assistance agreements. This risk will increase significantly under the recovery
program, which will include thousands of new contracts and contractors.

Sustained Oversight of Highway and Transit Investments
DOT must ensure that FHWA continues to provide strong stewardship of major
highway projects to maximize the return on Federal highway funding provided to
states (over $41 billion in fiscal year [FY] 2008). To its credit, FHWA has enhanced
its oversight of major projects and states’ management practices in recent years, but
sustained focus is needed to ensure that these efforts attain their goals. In the past, we
have reported on major oversight deficiencies on highway projects, such as Boston’s
Central Artery/Tunnel Project.

To strengthen oversight of highway funds, Congress made several important changes
in the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for
Users. 3 One major change involved reducing the threshold of major projects from
$1 billion to $500 million. As a result, FHWA must provide enhanced oversight to
projects now defined as major projects, including a review of the required finance
plan. A finance plan is an important oversight tool that provides managers and the
public with information on how much a project is expected to cost, when it will be
completed, whether adequate funding is committed, and whether there are risks to
completing the project on time and within budget.



3
    SAFETEA-LU, Pub. L. No. 109-59 (2005). This law expires September 30, 2009.


                                                                                        5
Another major change in the legislation involved adding a requirement for major
highway projects to have project management plans as well as finance plans. Project
management plans serve as a “roadmap” to help the project team deliver a project in
an efficient and effective manner by clearly defining roles, responsibilities, processes,
and activities. FHWA needs to strengthen the use of these tools and remain vigilant
in its oversight of major highway projects.

Likewise, FTA must ensure that the capital cost estimate for each proposed transit
project is credible and complete. This is a key element for determining whether a
project is cost effective. To its credit, FTA is now requiring its project management
oversight contractors to review cost estimates earlier in the New Starts process. FTA
has also implemented a program establishing a consistent format for estimating,
reporting, and managing capital costs on New Starts projects. However, FTA must
carefully evaluate whether each New Starts grantee has demonstrated stable and
dependable financing sources to construct, maintain, and operate a proposed transit
system or extension as well as the existing transit system. 4

Finally, FTA must provide strong oversight to keep major transit projects on schedule
and within budget during construction by exercising sound project and financial
management. FTA must focus on the Lower Manhattan Recovery Projects in the
coming year, which are facing significant challenges, including ensuring that project
sponsors commit sufficient funding sources to complete the projects. The Permanent
Port Authority-Trans Hudson Terminal Project alone has had cost estimate increases
of up to $1 billion. These high-priority projects (which are separate from the New
Starts program) constitute a $4.55 billion Federal investment to reconstruct and
enhance New York City’s transportation infrastructure after the September 11, 2001,
terrorist attacks.

IMPROVING OVERSIGHT OF AVIATION AND SURFACE
SAFETY
Improving transportation safety is DOT’s primary goal. DOT has taken actions this
past year to improve safety on a number of fronts, including launching an
industry/government partnership to improve runway safety and committing to data-
driven, risk-based oversight of bridge safety. However, we identified numerous and
significant vulnerabilities in aviation and surface transportation programs. To
enhance the margin of safety in the Nation’s transportation programs, our work has
shown that DOT needs to focus on three key areas:




4
    Local financial commitment is a major criterion that FTA uses to determine which New Starts projects are ultimately
    approved for a full funding grant agreement and therefore able to begin construction.


                                                                                                                     6
 Maintaining public confidence in FAA’s ability to oversee a dynamic aviation
    industry,
 Addressing obsolescence in the Nation’s aging surface infrastructure and enhancing
    surface safety programs, and
 Protecting against cyber security risks.
Maintaining Public Confidence in FAA’s Ability To Oversee a Dynamic
Aviation Industry
The past several years have been one of the safest periods in history for the aviation
industry. This is largely due to the dedicated efforts of the professionals within FAA
and throughout the industry. In January, we saw a dramatic example of aviation
professionalism when U.S. Airways flight 1549 made an emergency landing in the
Hudson River, and, miraculously, all 155 passengers and crew survived due to the
skillful efforts of the pilot and crew. However, the tragic accident last month of
Continental Connection flight 3407, which resulted in 50 fatalities, underscores the
need for constant vigilance over aviation safety on the part of all stakeholders.
Additionally, airline consolidation and downsizing continue to drastically change the
industry, and widely publicized lapses in FAA oversight in 2008 emphasize the need
for FAA to continually adapt its oversight of air carriers, external repair facilities, and
runways.

Oversight of Air Carrier Operations
Last April, we testified 5 that an FAA safety inspector had an overly collaborative
relationship with Southwest Airlines. The inspector violated FAA safety directives by
permitting the air carrier to operate 46 planes without required inspections for
fuselage cracks. Our work at Southwest and other carriers has also found weaknesses
in FAA’s national program for risk-based oversight, the Air Transportation Oversight
System (ATOS). At Southwest, multiple, missed ATOS inspections allowed safety
directive compliance issues in Southwest’s maintenance program to go undetected for
several years.

Our current review of ATOS has disclosed that this problem was not limited to
Southwest—FAA oversight offices for seven other major air carriers also missed
ATOS inspections. Over the past 6 years, we have identified system-wide problems
with ATOS, such as inconsistent inspection methods across FAA field offices or
incomplete inspections. We have recommended, among other things, that FAA
strengthen its national oversight and accountability to ensure consistent and timely
ATOS inspections.



5
    OIG Testimony Number CC-2008-046, “Actions Needed To Strengthen FAA’s Safety Oversight and Use of Partnership
    Programs,” April 3, 2008.


                                                                                                               7
Our report on Southwest recommended additional actions to help maintain public
confidence in FAA’s oversight of air carriers.              These included protecting
whistleblowers, improving risk-based systems for targeting inspector resources,
establishing mechanisms at the national level to provide quality assurance and
independent assessments of field office inspection efforts, and creating an
independent organization to investigate safety-related concerns raised by inspectors.
In response, FAA took a series of actions, including creating a national review team to
conduct quality assurance reviews and implementing a process to monitor field office
ATOS inspections. We continue to monitor the progress and effectiveness of FAA’s
actions and will be reporting on these issues later this year.

External Repair Facilities
FAA continues to face challenges in identifying where critical aircraft maintenance 6
is performed. A key issue is that FAA’s risk-based oversight system does not include
information on critical repairs performed by non-certificated repair facilities.
Currently, FAA does not require that air carriers report all repair stations performing
repairs to critical components or that FAA inspectors validate voluntarily submitted
information. FAA needs to advance risk-based oversight of outsourced maintenance
providers (both foreign and domestic) by developing and implementing a system for
determining how much and where aircraft maintenance is performed.

Runway Safety
Runway incidents continue to be a substantial threat to safety. A specific concern is
runway incursions (any incident involving an unauthorized aircraft, vehicle, or person
on a runway). Since 2003, the number of runway incursions has begun climbing
again, reaching a high of 370 in FY 2007, a 13-percent increase over FY 2004 (see
figure 1-1 below). Under FAA’s new definition for categorizing runway incursions
(effective October 2007), 7 the number of runway incursions continues to rise even
more dramatically, with a 38-percent increase since FY 2004 (see figure 1-2 below).
During FY 2008, 25 serious runway incursions occurred (where a collision was barely
avoided); this equates to about 1 serious runway incursion every 15 days.




6
    “Critical maintenance” describes mandatory maintenance activities that, due to their importance to the overall
    airworthiness of the aircraft, must be independently inspected by a specially trained inspector after the work is complete.
7
    Effective October 1, 2007, FAA began categorizing runway incursions using the International Civil Aviation
    Organization (ICAO) definition. The new definition of runway incursions includes incidents that were previously defined
    by FAA as “surface incidents” (where a potential conflict did not exist).


                                                                                                                             8
                   Fi gure 1 -1. Runway I ncursi ons                        Figure 1-2 Runway Incursions
               Original Definiti on, FY 1 999 to FY 200 7                 New Definiti on, FY 2 004 to FY 200 8
        FY 1999                                 329
                                                                   FY 2004                                730
        FY 2000                                        405
        FY 2001                                        407
                                                                   FY 2005                                  779
        FY 2002                                  339

        FY 2003                                 323                FY 2006                                    816
        FY 2004                                 326

        FY 2005                                 327                FY 2007                                        891

        FY 2006                                 330
                                                                   FY 2008                                              1009
       FY 2007                                         370

                  0     100      200      300      400       500             0    200     400     600     800     1000
       Source: FAA                                                 Source: FAA



Many see new technology as the key to runway safety solutions. However, our
reviews of three major FAA technologies for improving runway safety disclosed
serious concerns about what can be effectively deployed within the next several years.
Important steps to meeting this challenge in the near term include implementing
airport-specific infrastructure and procedural changes and reinvigorating existing
FAA national programs for improving runway safety.

FAA has taken steps to renew its national focus on runway safety, including hiring a
new Runway Safety Director, initiating a government/industry “Call to Action Plan,”
and issuing a National Runway Safety Plan. It is vital that FAA continue this
momentum. While FAA reported no serious runway incursions during the first
quarter of FY 2009 (a significant metric), the total number of runway incursions has
remained relatively constant (224 in the first quarter of FY 2009 versus 226 in first
quarter of FY 2008).

Addressing Obsolescence in the Nation’s Aging Surface Infrastructure
and Enhancing Surface Safety Programs
Fatal infrastructure failures in 2006 and 2007 have focused attention on obsolescence
in the Nation’s aging surface transportation infrastructure and the need to strengthen
oversight. DOT must work with states and localities to ensure the safety of our
bridges and tunnels and restore or replace those that present the highest risk of
catastrophic failure. This is a daunting task because the average bridge in the United
States is 43 years old, and almost one in four bridges is either structurally deficient
and in need of repair or functionally obsolete and too narrow for today’s traffic
volumes. 8 Likewise, DOT must address aging transit systems that are increasingly
becoming obsolete.


8
    American Association of State Highway and Transportation Officials, “Bridging the Gap: Restoring and Rebuilding the
    Nation’s Bridges,” July 28, 2008.


                                                                                                                               9
DOT must also continue to focus on programs for improving surface safety. Motor
vehicle traffic crashes cause more than 40,000 deaths and 2 million injuries annually
in the United States. Department safety improvement programs, such as Federal
motor vehicle safety standards for new cars, have contributed to major improvements
in surface safety. Specifically, the fatality rate in 2007 reached a historic low of
1.37 deaths per 100 million vehicle miles traveled, and the preliminary estimate of
injuries in 2007 was, for the first time, below 2.5 million. However, to meet the
Department’s goal, the fatality rate will need to drop to 1.0 by 2011. This presents a
substantial challenge since DOT does not directly control some of the most effective
tools, such as states’ enactment and enforcement of laws for seat belt and helmet
usage, alcohol-impaired driving, vehicle inspection, and speed limits.

Bridge and Tunnel Safety
Recent fatal infrastructure failures underscore the significance of bridge and tunnel
safety as major challenges. In 2006, ceiling panels collapsed in a tunnel in Boston’s
Central Artery/Tunnel Project, killing a motorist. In 2007, the catastrophic failure of
the I-35W Bridge in Minneapolis killed 13 people. These tragic incidents brought
renewed national attention to the safety of our bridges and tunnels. To strengthen
bridge and tunnel safety oversight, FHWA needs to take action in two key areas:

 First, FHWA must implement a data-driven, risk-based approach for overseeing the
  safety of the Nation’s bridges. FHWA has concurred with our recommendation to
  develop a comprehensive plan to routinely conduct systematic, data-driven analysis
  to identify nationwide bridge safety risks, prioritize them, and target those higher
  priority risks for remediation in coordination with states. FHWA committed to
  developing the plan by the end of this month. The key now is following through to
  complete the plan and execute its new processes and priorities.

 Second, FHWA needs to establish a national tunnel inspection program. While the
  National Bridge Inspection Program has existed for decades, FHWA currently lacks
  a highway tunnel inspection program. FHWA should implement a system to hold
  states accountable for inspecting and reporting on tunnel conditions. FHWA
  officials recently issued an advance notice of proposed rulemaking in November
  2008 to seek input on the development of national tunnel inspection standards.
  FHWA must ensure that finalizing the rulemaking remains a top priority.

Aging Transit Systems
The Nation’s largest transit systems are becoming increasingly obsolete. Many of our
transit systems are concentrated in large, urban areas and are very old and in need of
substantial upgrades or repairs. FTA must work with state and local transit agencies
to identify ways to repair, rehabilitate, or replace their infrastructure to meet current
demand, keep up with projected ridership, and prevent any catastrophic failures
caused by aging or obsolete infrastructure.


                                                                                      10
Unsafe Motor Carriers
The Federal Motor Carrier Safety Administration (FMCSA) is the lead agency for
establishing and enforcing motor carrier and commercial motor vehicle driver safety
requirements and standards. FMCSA needs to take stringent enforcement actions
against carriers that repeatedly violate safety regulations. Specifically, FMCSA must
renew efforts to strengthen its repeat-violator policy in a timely manner, as nearly
2 years have passed since its original commitment to do so.

Enforcement actions alone, however, will not ensure compliance with Federal safety
regulations because some individuals avoid sanctions by creating new motor carrier
identities. In August 2008, FMCSA started a vetting process to review new carrier
applicants to ensure the applicants are not trying to avoid enforcement sanctions. We
are reviewing this vetting process as part of our ongoing audit of FMCSA’s oversight
of motor coach safety.

The Commercial Driver’s License Program
The Commercial Driver’s License (CDL) Program’s purpose is to improve highway
safety by ensuring that drivers of large trucks and buses are qualified to operate those
vehicles and to remove unsafe and unqualified drivers from the highways. FMCSA
must enhance the CDL program by rigorously enforcing existing standards in
cooperation with state and local law enforcement agencies. In the past 5 years, our
joint investigations of fraudulent schemes for obtaining CDLs through corrupt means,
such as bribery, have led to the prosecution of CDL fraud schemes in 15 states.

FMCSA must also strengthen the CDL program by adopting and implementing new
standards. FMCSA has proposed new, stronger CDL standards that will reduce the
possibility that unqualified individuals can obtain CDLs. FMCSA will have to work
with states to ensure sustained cooperation in implementing these new standards
because some changes will need additional state resources.

Protecting Against Cyber Security Risks
Another important oversight challenge we identified for DOT is protecting its
networks and computers from increased cyber security risks—a problem facing all
Government agencies. DOT has made progress in addressing its overall statutory
responsibility to protect personally identifiable information (PII). For example, in
recent years, DOT has designated its Chief Information Officer as Chief Privacy
Officer; issued a privacy benchmark report to Congress; and established procedures
for assessing the need for PII collection, use, and security. However, last month’s
cyber attack—in which hackers penetrated DOT networks and captured PII
information on 48,000 current and former FAA employees—demonstrates that more
remains to be done to fully secure PII on DOT systems.




                                                                                     11
ENSURING THE SOLVENCY OF TRANSPORTATION TRUST
FUNDS, THEREBY IMPROVING MOBILITY AND REDUCING
CONGESTION
We identified significant challenges for DOT regarding funding for Federal highway,
transit, and aviation programs. Ensuring solvency in the transportation trust funds is
critical to DOT’s ability to carry out its mission of enhancing mobility and reducing
congestion. Congestion-related problems have impacted all modes of transportation;
DOT estimates that congestion costs the Nation almost $200 billion per year.

Flight delays and cancellations continued to be a concern in 2008, and the Nation’s
highways continue to experience record levels of congestion. In the near term, DOT
must take steps to prevent recurrence of this summer’s Highway Trust Fund (HTF)
cash flow crisis and ensure that new projects that will maximize the use of airspace
are properly managed. Specific challenges in these areas include:

 Maintaining the solvency of the Highway and Aviation Trust Funds,
 Operating and maintaining the National Airspace System while developing and
  transitioning to the next generation air transportation system (NextGen), and
 Reducing aviation and surface congestion.
Maintaining the Solvency of the Highway and Aviation Trust Funds

The Highway Trust Fund
DOT recognized the urgency of a cash flow crisis in the HTF last August and
requested Congress to approve legislation that would transfer $8 billion from the
General Fund to the HTF. While DOT successfully managed the HTF cash flow to
minimize negative impacts on state departments of transportation, pending the
transfer of the $8 billion from the General Fund, it is uncertain how long this infusion
of funds will last.

DOT’s ability to pay bills submitted by states for authorized costs incurred depends
on the amount of funds in the HTF. That balance largely depends on Federal motor
fuel excise tax receipts, which have been declining steadily in response to volatile fuel
prices and a deteriorating economy. Motorists are cutting back on their driving,
purchasing more fuel-efficient vehicles, and buying less gasoline, thereby generating
fewer receipts for the HTF. As a result, the cash balance in the Highway Account of
the HTF declined from $10.0 billion at the end of FY 2008 to $5.7 billion at the end
of January 2009 (see figure 2 below).




                                                                                      12
                                       Figure 2. Highway Trust Fund – Highway Account Balance
                                                           (FY 2005 – 2008)

                                                              $10.0 Billion closing balance after
                                  50                      $8.0 Billion transfer from the General Fund                          12
 HTF Revenues and Disbursements




                                                                                                                               10
                                  40




                                                                                                                                    Trust Fund Balance
                                                                                                                               8
                                  30




                                                                                                                                        ($ Billions)
           ($ Billions)




                                                                                                                               6

                                  20
                                                                                                                               4


                                  10
                                                                                                                               2


                                  0                                                                                            0
                                                 2005                  2006                  2007                2008                           $2.0
                                                                                                                                               Billion




Source:                                FHWA for actual Trust Fund revenues and disbursements and the President’s Budget for projected
                                       revenues and disbursements.

Compounding the Department’s near-term challenge is the fact that it does not
directly control the rate at which funds are drawn from the HTF. Instead, the pace of
state highway construction is driven by when states submit bills to DOT to be paid
from the HTF. While DOT has taken steps to better manage the cash in the HTF, the
potential exists for a recurrence of this summer’s HTF insolvency crisis before a long-
term solution can be reached. Therefore, DOT needs to maintain its focus on the HTF
cash flow.

Given that the current highway authorization expires at the end of FY 2009, DOT
needs a framework to guide surface transportation decisions and investments, the
level of highway funding needed, and its expenditure plans.

Surface transportation funding levels are generally determined by projected receipts
into the HTF. The projections of HTF receipts for the upcoming surface
reauthorization period are unlikely to support current funding levels, let alone
increased funding levels. The growth in highway construction and maintenance costs,
which we reported on last year, and the growing demand for higher levels of surface
infrastructure investment raise significant questions regarding the adequacy of a
funding structure that heavily relies on the 18.4 cents per gallon Federal gasoline tax.


                                                                                                                                            13
DOT needs to work with the various stakeholders and Congress on what an
appropriate level of Federal surface infrastructure investment should be and how that
investment should be financed. Alternative or supplemental funding mechanisms that
might be considered include increasing the current fuel tax, imposing additional
vehicle registration or sales taxes, new tolls, or customs duties. Each revenue source
would have a significant impact on highway users and the economy, which DOT
would need to consider carefully.

The Aviation Trust Fund
FAA is currently financed by two mechanisms: excise taxes deposited into the
Airport and Airway Trust Fund and a General Fund contribution. Over the past
5 years, the Trust Fund has paid for approximately 81 percent of FAA’s total budget
with the remaining 19 percent paid out of the General Fund. However, since FAA
submitted its reauthorization proposal in 2007, the aviation environment has changed
significantly. The current economic downturn following record-high fuel prices has
caused air carriers to dramatically scale back operations. This trend has resulted in
declining revenues for the Airport and Airway Trust Fund, the main funding
mechanism for FAA programs.

According to Treasury Department data, Trust Fund revenues declined by more than
11 percent during the first quarter of FY 2009. Over the past 5 years, Trust Fund tax
revenues have steadily increased (see figure 3). However, given the drop in aviation
traffic and the resulting decline in passenger taxes, it is almost certain that future
Trust Fund tax revenues will drop significantly during the balance of FY 2009 and in
FY 2010 as well.

           Figure 3. Airport and Airway Trust Fund Tax Revenues
                      FY 2003 to FY 2008 ($ in Millions)
     $14,000
                                                                     $11,992
                                                           $11,468
     $12,000                                     $10,590
                                      $10,314
                             $9,174
     $10,000       $8,684

      $8,000


      $6,000
               FY 2003      FY 2004   FY 2005   FY 2006    FY 2007   FY 2008

     Source: FAA

In addition, past differences between FAA’s budget, the Trust Fund revenues, and the
General Fund contribution have been made up by drawing down the Trust Fund’s
uncommitted balance. However, these actions have depleted that balance to the point
where only a limited cushion of funding remains. As shown in figure 4 below, the


                                                                                   14
uncommitted Trust Fund balance has declined by more than 80 percent, from
$7.3 billion at the end of FY 2001 to $1.4 billion at the end of FY 2008. As a result,
this practice may no longer be a viable option for funding new and existing projects.

      Figure 4. Airport and Airway Trust Fund Uncommitted Balance
                     FY 2001 to FY 2008 ($ in Millions)
                  $7,344
     $8,000
     $7,000
     $6,000                    $4,787
     $5,000                              $3,898
     $4,000                                        $2,447
     $3,000                                                 $1,940    $1,773    $1,533    $1,435
     $2,000
     $1,000
        $0
                FY 2001     FY 2002     FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008


              Source: FAA

As Congress moves forward with FAA’s annual appropriations and multi-year
reauthorization legislation, it should monitor the status of the Trust Fund to ensure its
long-term solvency while ensuring sufficient funding for Agency programs.

Operating and Maintaining the National Airspace System While
Developing and Transitioning to NextGen
FAA will face challenges in balancing the needs of the current National Airspace
System, which is showing signs of strain, with future training, technological, and
facility requirements associated with NextGen. Developing NextGen is a high-risk
effort involving billion-dollar investments from both the Government and industry.
After more than 4 years of planning, FAA must shift to implementation. FAA plans
to spend more than $630 million in 2009 on NextGen-related programs, which
include Automatic Dependent Surveillance-Broadcast (ADS-B) and System-Wide
Information Management (SWIM). Figure 5 below illustrates FAA’s planned
investments in ongoing projects and NextGen initiatives from FY 2008 to FY 2014.




                                                                                                    15
                             Figure 5. FAA Capital Funding for FY 2008 to FY 2014
                                                        ($ Totals in Millions)
    $4,000.0
                                                                                              $3,621.0   NextGen funding
                                                                                   $3,558.0              includes
                           NextGen Funding                             $3,345.0                          transformational
    $3,500.0               Remaining F&E                                                                 programs—such as
                                                                                                         ADS-B, SWIM,
                                                          $3,122.0
                                                                                                         and DataComm–and
                                             $2,850.0                                                    developmental efforts.
    $3,000.0                   $2,723.5
                                                                                   $1,472.1   $1,585.7
               $2,513.6                                                 $1,198.1
                                                          $1,034.3
    $2,500.0                                  $685.2
                $187.7           $631.1
                                                                                                         Remaining capital
                                                                                                         funding is for existing
                                                                                                         projects, facilities,
    $2,000.0                                                                                             and support service
                                                                                                         contracts.


    $1,500.0

               $2,325.9                                                                                  Total NextGen
                               $2,092.4      $2,164.8     $2,087.7      $2,146.9   $2,085.9              funding for FY 2008
    $1,000.0                                                                                  $2,035.3
                                                                                                         to FY 2014 from the capital account
                                                                                                         is projected to be $6.8 billion.


     $500.0



        $0.0
                FY 2008         FY 2009      FY 2010      FY 2011       FY 2012     FY 2013    FY 2014
               (Enacted)      (Requested)
                                                         Fiscal Year




Source: FAA

In FY 2010, FAA will request more than $800 million for NextGen. In addition to
specific capital projects totaling $685 million as shown in figure 5, FAA is also
requesting $57 million for Research, Engineering and Development projects,
$48 million for support service contracts, $26 million for personnel, and $13 million
from the Operations account. To reduce risk, we recommended last April 9 that FAA
conduct a “gap analysis” of the current system and the vastly different NextGen
system planned for 2025 and develop an interim architecture. FAA has focused
considerable attention on mid-term objectives, but fundamental issues remain to be
addressed. These include the following:

 Completing the gap analysis of today’s system and NextGen as promised and
    refining the NextGen mid-term architecture. These two efforts are important
    because FAA intends to rely on existing automation systems to provide the basis for
    NextGen through the mid term. However, until FAA establishes the detailed
    changes needed to transition to NextGen, it will be impossible to determine
    requirements that can be used to develop reliable cost and schedule estimates to
    achieve NextGen’s mid-term goals.



9
    OIG Report Number AV-2008-049, “Air Traffic Control Modernization,” April 14, 2008.


                                                                                                                                      16
 Establishing priorities and Agency commitments with stakeholders and
 reflecting them in budget requests and plans. It remains difficult for decision
 makers to determine what to invest in first from the wide range of operational
 improvements in NextGen planning documents. Also, stakeholders have asked
 FAA to clearly state mid-term Agency and operator commitments in its NextGen
 plans.

 Managing NextGen initiatives as portfolios and establishing clear lines of
 responsibility, authority, and accountability. It is important to manage NextGen
 capabilities in an integrated way because new systems as well as procedure and
 airspace changes will be needed to deliver benefits. However, FAA’s Acquisition
 Management System was not designed for managing NextGen investments. Rather,
 FAA’s system focuses on baselines and specific capital programs—not a collection
 of investments. FAA recognizes that it must adjust its process for approving
 acquisitions. FAA could also strengthen its NextGen Implementation Plan by
 assigning responsibility, authority, and accountability for specific NextGen
 portfolios.

 Identifying the number and type of facilities that will be needed to support
 NextGen. FAA has not made key decisions regarding facility consolidations and
 infrastructure needs—a key cost driver for NextGen. FAA plans to spend
 $17 million in FY 2009 to examine various alternatives for revamping its facilities.
 The realignment or consolidation of FAA facilities is a controversial undertaking.
 Therefore, FAA must ensure that this analysis clearly addresses the technological
 and security prerequisites, cost drivers, benefits, and logistical concerns associated
 with consolidation so decision makers will know what can be reasonably
 accomplished. Timely completion of this analysis is particularly critical as the
 economic recovery program includes an additional $200 million for FAA facilities
 and related equipment.

 Hiring and training the next generation of air traffic controllers. Through
 2017, FAA plans to hire and train nearly 17,000 new controllers to replace those
 who were hired after the 1981 strike and are now retiring. A major challenge will
 be training and certifying the huge surge of new controllers at their assigned
 location, a process that currently takes up to 3 years. Controllers in training now
 represent nearly 26 percent of the workforce (up from 15 percent in 2004).
 However, many key facilities, such as the Southern California Terminal Radar
 Approach Control (which expects to have nearly 100 controllers in training later
 this year or over 40 percent of its workforce), already exceed the national levels.
 Ensuring there are enough certified controllers at FAA’s more than 300 air traffic
 control facilities will remain a significant watch item for the Department and
 Congress for at least the next 10 years.



                                                                                    17
  In September 2008, FAA made a major change to its training program by awarding
  a 10-year, nearly $900 million contract to the Raytheon Technical Services
  Company to support the Agency’s training of newly hired and existing air traffic
  controllers. The contract calls for Raytheon to provide training support at both the
  FAA Academy in Oklahoma City, Oklahoma, and at air traffic facilities nationwide.
  We are beginning a review of this contract program later this month.

Reducing Aviation and Surface Congestion
DOT has made progress in implementing several congestion-mitigation initiatives this
past year, and it is imperative that these remain a key Federal priority across all
modes. For example, DOT has taken steps to ease aviation congestion by reducing
flights in the New York City area and establishing new routes through airspace
redesign and air traffic control procedures. DOT is also building new runways
nationwide.

Reducing delays, particularly at already congested airports, and improving airline
customer service are important issues facing the Nation. Peak-year 2007 trends
continued into the first 6 months of 2008, with more than 1 in 4 flights (29 percent)
delayed or cancelled. However, in the second half of 2008, flight delays declined by
24 percent over the same period in 2007. This improvement was largely the result of
huge cutbacks in scheduled flights implemented by airlines beginning in September.

These cutbacks resulted in a 13-percent reduction in domestic flights and lowered
flight delays and cancellations at most airports to levels last seen in 2002. However,
delays continued to be a problem over the summer at heavily congested airports such
as Newark (up 0.4 percent), John F. Kennedy, LaGuardia, and Chicago O’Hare (down
only 5 percent each).

Although DOT decides where to invest Federal funds to operate and expand the air
traffic control system, state and local authorities select most highway and transit
projects for funding. Therefore, DOT will need to work with these stakeholders to
target Federal infrastructure funding to congestion relief for surface transportation.

New Runways
The long-term solution to increasing capacity and reducing delays depends largely on
expanding capacity through NextGen. While there is no “silver bullet” for addressing
delays, several near-term initiatives can help relieve congestion. According to FAA,
building new runways provides the largest increases in capacity. In November 2008,
FAA commissioned three new runways—at Chicago O’Hare, Seattle, and
Washington-Dulles—and estimates that these runways have the potential to
accommodate an additional 300,000 operations annually. Currently, there are four
runway projects underway at four major airports, which are expected to be complete
by 2014. The table below provides details on the four runway projects.


                                                                                   18
                   Table. Current Airfield Construction Projects
       Airports        Airfield Construction     Est. Completion     Cost Estimate
                              Projects
  Chicago O’Hare     Runway (10C/28C)          2012                $1.3 billion
  Charlotte          Runway                    February 2010       $300 million
  Boston             Centerfield Taxiway       November 2009       $55 million
  JFK                Multiple Taxiways         2014                $200 million
   Source: FAA

Airspace Redesign and New Routes
Airspace redesign efforts are critical to realizing the full benefits of runways and can
also enhance capacity without new infrastructure. Currently, FAA is pursuing six
airspace redesign projects nationwide, including a major but controversial effort to
revamp airspace in the New York/New Jersey/Philadelphia area. However, FAA’s
airspace redesign efforts still do not function as a “national” program since FAA
facilities are now using their own resources to redesign airspace without coordinating
with Headquarters. FAA needs to complete guidelines for managing airspace projects
across the Agency’s lines of business and establish realistic funding profiles for
airspace projects.

Another factor for maximizing the use of airspace is establishing new routes that rely
on equipment onboard aircraft. These new routes rely on procedures (called Area
Navigation/Required Navigation Performance or RNP) that allow aircraft to fly more
precise routes, which also reduces fuel burn. At this stage, the challenge facing FAA
is shifting from localized operations to networking city pairs, like Washington, DC,
and Chicago, IL, which will require considerable simulation modeling as well as close
coordination with airspace redesign efforts and stakeholders. Last month, we began a
review to assess FAA’s use and oversight of third parties for developing new RNP
procedures.

Intercity Passenger Rail
Intercity passenger rail is an integral part of America’s transportation system,
particularly in light of growing highway and aviation congestion and fluctuating fuel
prices. Amtrak, the Nation’s intercity passenger rail service provider, experienced
record revenue and ridership until October 2008 when ridership began to decline.
Amtrak now forecasts a 3.6 percent decline in ridership in FY 2009.

The economic recovery program contains a one-time capital infusion of $1.3 billion
for Amtrak, and a separate infusion of $8.0 billion for capital assistance for high-
speed rail and intercity passenger rail service. However, given the likelihood of a
further constrained Federal funding environment and Amtrak’s continuing struggles
with poor on-time performance, Amtrak’s long-term ability to continue to grow as a
viable transportation alternative and reduce congestion remains uncertain.


                                                                                     19
Amtrak’s poor on-time performance also weakens its financial position by reducing
its revenues and increasing its operating costs. Between FY 2003 and FY 2008,
Amtrak’s on-time performance for its strongest service, Acela, ranged between
71 percent and 88 percent, while on-time performance for long-distance routes off the
Northeast Corridor only reached an average high of 54 percent; for non-corridor
routes, on-time performance fell from an average of 76 percent to nearly 69 percent.

The recently enacted Passenger Rail Investment and Improvement Act (PRIIA)10
enables DOT, through the Surface Transportation Board, to improve Amtrak’s on-
time performance on freight railroads (over whose track Amtrak travels). Also, DOT
needs to work with the freight railroads and Amtrak to develop and implement the
performance improvement plans called for under PRIIA.

CONCLUSION
The Administration and the 111th Congress face an array of challenges and difficult
decisions with respect to transportation programs. While we have seen improvements
on several fronts, important challenges remain that DOT must address. The
significant increase in funding for transportation projects associated with the
economic recovery program adds new challenges to long-standing ones. DOT will
need sustained efforts to ensure that accountability, efficiency, and effectiveness are
maintained in its portion of the recovery program.

Specifically, DOT should focus on: (1) building an effective acquisition workforce to
ensure that the goals of the economic recovery program are achieved; (2) establishing
effective contracting mechanisms and financial practices to facilitate sound business
decisions, ensure returns on investment, and avoid wasteful spending; (3) reforming
mechanisms to prevent fraud, waste, and abuse; (4) developing comprehensive
oversight of highway and transit investments; (5) enhancing FAA’s ability to provide
oversight of a dynamic aviation industry; (6) addressing obsolescence in the Nation’s
aging surface infrastructure and enhancing surface safety programs; and (7) ensuring
solvency in the Highway and Aviation Trust Funds to carry out its mission of
enhancing mobility and reducing congestion.

That concludes my statement, Mr. Chairman. I will be happy to answer any questions
you or other Members of the Subcommittee may have.




10
     Pub. L. No. 110-432 (2008).


                                                                                    20
EXHIBIT A. TYPES OF FRAUD SCHEMES INVESTIGATED BY OIG
The following are brief descriptions of fraud schemes commonly seen by U.S. DOT
OIG Special Agents.

 Bid Rigging & Collusion: In bid rigging and collusions, contractors misrepresent
  that they are competing against each other when, in fact, they agree to cooperate on
  the winning bid to increase job profit.
 Materials Overcharging: Under this fraud scheme, a contractor misrepresents
  how much construction material was used on the job and then is paid for excess
  material to increase job profit.
 Time Overcharging: In a time overcharging scheme, a consultant misrepresents
  the distribution of employee labor on jobs in order to charge for more work hours,
  or a higher overhead rate to increase profit.
 Product Substitution: In a scheme involving product substitution, a contractor
  misrepresents the product used in order to reduce costs for construction materials.
 Disadvantaged Business Enterprises:         Under this scheme, a contractor
  misrepresents who performed the contract work in order to increase job profit while
  appearing to be in compliance with contract goals for involvement of
  minority/women-owned businesses.
 Quality-Control Testing Fraud: In this scheme, a contractor misrepresents the
  results of quality control tests to earn contract incentives falsely or to avoid
  production shutdown in order to increase profits or limit costs.
 Bribery: Bribery occurs when a contractor misrepresents the cost of performing
 work by compensating a Government official for permitting contract overcharges to
 increase contractor profit.
 Kickbacks: In kickback schemes, a contractor or subcontractor misrepresents the
  cost of performing work by secretly paying a fee for being awarded the contract and
  therefore inflating the cost to the Government.
 Conflicts of Interest: In fraud involving conflicts of interest, a contracting or
  oversight official misrepresents that he or she is impartial in business decisions
  when he or she has an undisclosed financial interest in a contractor or consultant
  who inflates job cost to the Government.




Exhibit A. Types of Fraud Schemes Investigated by OIG                                   21
